          IMPROVEMENTS IN
 COST-PLUS-AWARD-FEE PROCESSES ARE
NEEDED TO ENSURE MILLIONS PAID IN FEES
            ARE JUSTIFIED

         Department of Transportation

         Report Number: ZA-2010-092
         Date Issued: August 25, 2010
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Improvements in Cost-Plus-Award-Fee               Date:    August 25, 2010
           Processes Are Needed To Ensure Millions Paid In
           Fees Are Justified
           Department of Transportation
           Report Number ZA-2010-092

  From:    Lou E. Dixon                                           Reply to
                                                                  Attn. of:   JA-60
           Principal Assistant Inspector General for
           Auditing and Evaluation

    To:    Acting Deputy Assistant Secretary for Administration
           Office of the Secretary of Transportation

           Ramesh K. Punwani
           Assistant Administrator for Financial Services/CFO

           As of June 2008, the Department of Transportation (DOT) had 47 open cost-plus-
           award-fee (CPAF) contracts—contracts that provide financial incentives based on
           contractor performance. These contracts have a potential maximum value of
           approximately $5.5 billion, including over $271 million in available award-fee
           pools. While CPAF contracts can encourage excellence in contract performance,
           they require effective monitoring to ensure contract dollars are spent wisely and
           award fees are justified based on contractor performance and related expected
           outcomes.

           In December 2007, the Office of Management and Budget’s (OMB) Office of
           Federal Procurement Policy issued guidance to chief acquisition officers and senior
           procurement executives to review and update their acquisition policies on the
           appropriate use of incentive contracts, which includes CPAF contracts. Concerns
           about the use of CPAF contracts across the Government prompted us to examine
           how DOT’s Operating Administrations manage the use of CPAF contracts.
           Specifically, we:

                   (1) assessed award-fee ratings and payments made by Operating
                   Administrations based on documentation used to support them;
                                                                                                                   2


       (2) evaluated Operating Administrations’ award-fee guidance, payment
       structure, and evaluation criteria; and

       (3) identified challenges in DOT’s management of CPAF contracts.

To conduct our work, we reviewed relevant policies and guidance, including
Federal Acquisition Regulations (FAR), OMB directives, the Federal Aviation
Administration’s (FAA) Acquisition Management System (AMS), and guidance
from other Federal agencies. 1 We reviewed 24 CPAF contracts from 7 Operating
Administrations—FAA, Federal Highway Administration (FHWA), Federal
Railroad Administration (FRA), Maritime Administration (MARAD), Office of the
Secretary (OST), Pipeline and Hazardous Material Safety Administration
(PHMSA), and the Research and Innovative Technology Administration (RITA)—
to evaluate their design, implementation, and amount of award fees paid. Twenty-
one of these contracts were randomly selected from a universe of 41 CPAF
contracts as of December 31, 2006; the remaining 3 were follow-on contracts. 2
The 24 contracts have a potential maximum value of over $3 billion, including
about $170 million estimated in available award fees.

We conducted this audit in accordance with generally accepted government
auditing standards. Exhibit A contains the details of our scope and methodology,
including the unique acquisition regulations applicable to DOT and its Operating
Administrations.


RESULTS IN BRIEF
Operating Administrations consistently gave contractors high ratings and
substantial award fees, totaling about $15 million for the rating periods we
reviewed. However, the ratings associated with $14 million—or 92 percent—of
the award fees lacked sufficient support to demonstrate that the contractor met or
exceeded the award-fee evaluation criteria, as OMB guidance directs. On almost
all contracts, performance monitors assigned an adjectival rating, 3 such as excellent
or satisfactory, or a numerical rating without explaining the reasons for the rating.
For the majority of contracts where performance monitors documented their
support, the examples and comments provided were often too general to determine



1
  Departments of the Army, Navy, and Air Force; the Environmental Protection Agency (EPA); and the National
   Aeronautics and Space Administration (NASA). We used guidance from these agencies as a benchmark for
   identifying practices that we considered most beneficial to ensure effective use of award fees. FAA also issued an
   Award-Fee Contracting Guide in September 2007.
2
  A new contract that calls for the same supplies and services as a previous contract.
3
  Adjectival ratings describe what constitutes each level of performance within each performance category and provide
   assistance in establishing evaluation criteria.
                                                                                                                   3


whether the ratings and award fees were warranted. For example, on a Volpe 4
contract for a broad range of information technology support services, a
performance monitor gave a work assignment a rating of excellent for timeliness of
deliverables. The support for this rating was “There were no schedule issues.” The
performance monitor did not provide further descriptions relating how the
contractor exceeded expectations or timeliness was excellent. Due to these
findings, we extrapolated the results of our sample to the universe of 41 DOT
CPAF contracts and estimate with 90 percent confidence 5 that as of
December 31, 2007, approximately $140.6 million was paid in award fees without
proper justification, which we therefore identified as unsupported costs.

With the exception of FAA, Operating Administrations lack specific guidance on
the use of award-fee contracts. Further, Operating Administrations’ award-fee
payment structures provide little incentive for contractors to excel in carrying out
the terms of their contracts. For example, 9 of the 10 contracts we reviewed that
include a base fee allowed awards ranging from 20 percent to 75 percent of the
award-fee pool to be paid for average performance—a practice not allowed by
other Federal agencies. In addition, performance evaluation plans 6 for 13 contracts
we reviewed allow awards for below-average results. For example, the contractor
on an FHWA contract for non-personnel support services could receive 70 percent
of the award-fee pool—more than a half million dollars—for performance slightly
below the minimum acceptable standards.               Operating Administrations’
performance evaluation plans also used vague criteria, such as "quality and
timeliness of deliverables" and “quality of planning,” making it difficult for
performance monitors to understand and consistently apply the ratings. In addition,
for almost all contracts, the evaluation criteria simply required the contractor to
meet normal contract expectations, such as submitting accurate invoices and
maintaining an effective relationship with government staff.

We found a number of weaknesses in the management of the Department’s CPAF
contracts. First, DOT has not developed adequate training for performance
monitors and other personnel involved in the award-fee process. Second, DOT has
failed to ensure adequate separation of duties in evaluating contractor performance
and awarding fees. Other Federal agencies provide for separation of such duties by
requiring evaluation teams to consist of a fee-determining official (FDO),
performance evaluation board (PEB), and performance monitors. The PEB is
responsible for reviewing the performance monitors' evaluations, the contractor's

4
   Volpe is part of the Research and Innovative Technology Administration (RITA) of the Department of
   Transportation.
5
  Relative precision of the estimate is ± 46.3 percent.
6
  A performance evaluation plan is an important element of a CPAF contract usually containing performance evaluation
   criteria, the award-fee pool allocated by evaluation period, organizational structure, roles and responsibilities,
   payment structure (ratings/grades/weights), and the award-fee process.
                                                                                   4


self-evaluation, and any other information available in order to arrive at an overall
objective and impartial position on the contractor's performance. The FDO is
independent of the PEB and makes the final decision on the amount of award fee
earned. At DOT, however, this is not always the case. In some instances, DOT
officials not only assessed contractor performance but also recommended and
approved award-fee amounts. At the same time, it is unknown whether DOT’s use
of CPAF contracts has been appropriate. This is largely because Operating
Administrations commit to these contracts without justifying their cost-
effectiveness, as required by the FAR and recommended by FAA’s AMS, and DOT
has not determined whether its CPAF contracts have produced better outcomes than
other contract types. Finally, inactive funds on completed CPAF contracts are not
always deobligated. About $4.6 million remained obligated on an FAA contract
that had been completed for about 2 years.

Our report makes a number of recommendations that could greatly improve the
design, administration, and overall management of DOT's CPAF contracts and
therefore, increase the effectiveness of award fees as motivators for excellent
contractor performance.


BACKGROUND
Federal agencies use several contract types to acquire a variety of products and
services. Contract types are grouped into two broad categories: fixed-price and
cost-reimbursement.     Cost-reimbursement contracts, which include CPAF
contracts, are suitable for use only when uncertainties involved in contract
performance do not permit costs to be estimated with sufficient accuracy to use a
fixed-price-type contract. Unlike other cost-reimbursable contracts, a CPAF
contract provides financial incentives intended to control program risk and
encourage excellence in contract performance. The FAR provides that CPAF
contracts should be used to achieve acquisition outcomes, such as delivering
products and services on time, within cost goals, and with optimal technical results.
A CPAF contract allows the Government to evaluate a contractor's performance
according to specified criteria and grant an award amount within designated
parameters. A contractor may receive a base fee on a CPAF contract regardless of
performance. To evaluate contractor performance and determine appropriate award
fees, agencies must implement an effective award-fee process.

Within DOT, the Office of the Senior Procurement Executive is responsible for
Department-wide acquisition policy and oversight, with the exception of FAA,
                                                                                                                     5


which has independent procurement authority. 7 This includes the oversight for the
Transportation Acquisition Regulation (TAR) system, which establishes acquisition
policies and procedures that implement and supplement the FAR. For CPAF
contracts, DOT personnel conduct periodic—usually semiannual—evaluations of
the contractor’s performance against specified criteria, document their observations
and conclusions, and then recommend the amount of award fee to be paid.
Performance criteria are typically provided in the contract’s performance
evaluation plan, which also states the award-fee pool 8 to be allocated by evaluation
period; roles and responsibilities of acquisition and procurement staff, including
performance monitors; and a payment structure for computing award-fee amounts. 9

In December 2007, OMB’s Office of Federal Procurement Policy issued guidance 10
to chief acquisition officers and senior procurement executives to review and
update their acquisition policies on the appropriate use of incentive contracts,
which includes CPAF contracts. Specifically, the guidance directs them to ensure
that award fees are linked to cost, schedule, and other performance outcomes and
are not earned if the contractor’s performance is judged to be below satisfactory or
does not meet the basic requirements of the contract. OMB guidance instructed
agencies to design evaluation factors that motivate contractors to achieve superior
results by making clear distinctions in possible award earnings between satisfactory
and excellent performance. In addition, guidance from other Federal agencies,
such as the Army, does not recommend that contracts with a base fee 11 provide an
award fee for performance that is deemed satisfactory, as the base fee is intended to
compensate such performance. Additionally, provisions in the Duncan Hunter
National Defense Authorization Act for Fiscal Year 2009 12 seek to prevent
unjustified award fees paid to contractors. The Act also directs that the FAR be
amended to provide executive agencies other than the Department of Defense with
additional guidance on the use of award fees. 13



7
   In the Department of Transportation’s FY 1996 Appropriations Act, Congress provided FAA with broad authority to
   develop its own acquisition process without having to comply with Federal acquisition laws or regulations. FAA
   established its Acquisition Management System, a set of policies and guidance designed to address the unique needs
   of the Agency. FAA updated its AMS (Section T3.2.4, Types of Contracts) to include additional award-fee
   guidance in July 2008 and January 2010.
8
   Under a CPAF contract, a pool of money is negotiated in advance, and periodic assessments are made by the
   Government to determine how much of the award-fee pool will be earned based on contractor performance and
   attainment of the program goals and objectives.
9
   Payment structures typically weigh adjectival ratings (such as excellent, fair, and poor) and numeric scores (between
   0 and 100).
10
   Office of Management and Budget, Appropriate Use of Incentive Contracts, Memorandum for Chief Acquisition
   Officers and Senior Procurement Executives, December 4, 2007.
11
   The base fee is an amount of money (from 0–3 percent of the estimated cost of the contract) fixed at the inception of
   the contract, which is paid to the contractor for its performance.
12
   Public Law 110-417, Section 867, enacted on October 14, 2008.
13
   These changes were published in the Federal Register, Volume 74, No. 197, October 14, 2009.
                                                                                                                    6


In 2008, we issued four interim reports on problems Operating Administrations
have experienced in designing and justifying CPAF contracts. Overall, we found
that performance evaluation plans did not include measurable criteria to adequately
evaluate contractor performance; descriptions defining adjectival ratings were
vague and/or inconsistent and did not clearly define the basis for rating
performance; and contracting officials did not justify the cost effectiveness of
selecting a CPAF contract. Exhibit B briefly summarizes these reports.


CONTRACTOR RATINGS ARE NOT ADEQUATELY SUPPORTED
TO JUSTIFY SUBSTANTIAL AWARD-FEE PAYMENTS
Despite the significant award-fee payments made to contractors, Operating
Administrations often did not demonstrate that the payments were warranted. We
reviewed a total of 24 contracts; however, rating periods were not yet completed
for 2 contracts. For the 22 contracts we reviewed with completed rating periods,
only 2 had sufficient documentation supporting performance monitors’ evaluations
and ratings, and 3 had no assigned ratings even though the rating period ended and
such ratings were required. The remaining 17 contracts lacked adequate support to
determine whether the assigned ratings and the resulting award fees were justified.
For some contracts, performance monitors did not provide comments or examples
to support their adjectival or numeric ratings 14 or to indicate key evaluation criteria
were satisfied. For those contracts where performance monitors did provide
narrative to support ratings, the comments or examples were general and lacked the
detail needed to demonstrate the ratings were warranted. For example, support for
285 of 310 “superior” ratings on a MARAD contract 15 included comments such as
“most pleased with the progress and quality of work to date” and “the contractor
has overcome obstacles and made it work.” Despite this vagueness, MARAD paid
the contractor 99 percent (about $142,000) of the available award-fee pool over the
two rating periods in our sample.

In a 2008 report on FAA’s System Engineering and Technical Assistance II (SETA
II) contract, 16 we noted that FAA no longer required performance monitors to
provide detailed comments on contractor performance—including identifying
specific strengths, weaknesses, and deficiencies—although it continued to




14
     Adjectival ratings are terms such as “excellent” and “satisfactory”; numeric ratings use a scale of 1 to 4.
15
     The MARAD contract was for comprehensive support services to maintain and enhance logistics programs.
      Performance areas included quality/timeliness of work, effectiveness in controlling and/or reducing cost,
      integration/coordination of effort, and effectiveness of program management.
16
     Report Number FI-2009-002, “Interim Report on Award-Fee Criteria for the System Engineering and Technical
      Assistance II Contract,” dated October 7, 2008. All OIG reports and testimonies can be viewed on our website at:
      www.oig.dot.gov.
                                                                                                                 7


encourage monitors to do so. 17 While it is unclear to what extent performance
monitors continue to provide detailed comments on FAA’s CPAF contracts, we
could not find adequate documentation for the SETA II contract to support the
contractor’s consistently high ratings and award fees—approximately $2 million or
90 percent of the available award-fee pool for two completed rating periods.

Table 1. Percentage of Award Fees Paid for Rating Periods Reviewed


                                                                                  Percentage of the
   Operating               Available Award-              Amount of               Available Award-Fee
 Administration               Fee Pool                 Award Fee Paid                 Pool Paid
       PHMSA                              $29,212                  $29,212                  100%
         FAA                        $10,315,731                 $9,740,490                   94%
       MARAD                            $486,103                  $453,731                   93%
         FHWA                           $397,660                  $370,995                   93%
         FRA                              $71,806                  $61,467                   86%
         RITA                         $5,097,965                $4,353,537                   85%
         OST                              $81,325                  $66,687                   82%
Total:                              $16,479,802               $15,076,118                    91%

For the ratings we reviewed, Operating Administrations paid contractors about
$15 million of the $16.5 million (about 91 percent) of available award fees (see
table 1). However, the ratings associated with $14 million of the award fees lacked
adequate support to determine whether the assigned ratings and resulting award
fees paid were justified. Due to these findings, we extrapolated the results of our
sample to the universe of 41 DOT CPAF contracts and estimate with 90 percent
confidence 18 that as of December 31, 2007, approximately $140.6 million was paid
in award fees without proper justification, which we therefore identified as
unsupported costs.

OPERATING ADMINISTRATIONS' AWARD-FEE PROCESSES
PROVIDE LITTLE CONTRACTOR INCENTIVES
Operating Administrations’ award-fee processes do not support the goal of
motivating contractors to excel in carrying out the terms of the contract. Unlike
other Federal agencies, DOT, with the exception of FAA, has little to no guidance
on the use of award fees. Most Operating Administrations’ payment structures
allow for award-fee payments for average or below-average performance.

17
   According to an FAA senior official, removing the documentation requirement was intended to increase the number
   of evaluation responses submitted by performance monitors, and the response rate has since increased. We did not
   verify this.
18
   Relative precision of the estimate is ± 46.3 percent.
                                                                                  8


Operating Administrations’ performance plans also lacked clear evaluation criteria,
leaving ratings open to interpretation.


Lack of Specific Guidance on the Use of CPAF Contracts Underlies
Inappropriate Performance Ratings and Award Payments
Senior acquisition officials at DOT and FAA acknowledged that specific award-fee
guidance is needed to ensure CPAF contracts achieve acquisition outcomes.
However, DOT's TAR does not provide specific award-fee guidance. For example,
the TAR does not instruct contracting officials to make clear distinctions between
satisfactory and excellent performance, nor does it state that award fees should not
be paid to contractors whose performance is judged to be below satisfactory or does
not meet the basic requirements of the contract. The guidance also lacks clarity on
how to link performance outcomes—such as cost and schedule—to award fees.

Operating Administrations’ large award-fee payments to contractors who perform
satisfactorily are mainly the result of a lack of detailed guidance and training on
how to design and administer CPAF contracts. DOT’s Office of the Senior
Procurement Executive has yet to issue new or update existing policies in
accordance with OMB’s December 2007 memorandum calling for chief acquisition
officers and senior procurement executives to review and update their acquisition
policies. DOT’s TAR, which includes general guidance on the use of CPAF
contracts, was last revised in April 2005; the section on performance evaluation
plans has not been updated since October 1994. In contrast, other agencies have
developed guidance that explicitly states how to properly administer CPAF
contracts. For example, NASA and the Departments of the Air Force, Army, and
Navy state that performance monitors should observe contractor performance based
on the criteria specified in the performance evaluation plan and document results
by giving specific examples to support their conclusions.


Operating Administrations' Payment Structures Do Not Adequately
Discriminate Between Poor, Satisfactory, and Excellent Contractor
Performance
To encourage contractor excellence, OMB guidance states that there should be
clear distinctions in possible award earnings between satisfactory and excellent
performance. OMB guidance further states that no award fee should be paid for
performance that does not meet contract requirements or is judged to be
unsatisfactory. NASA and the Department of the Army have developed guidance
that similarly states that poor performing contractors should not be paid an award
fee. Guidance from NASA and the Departments of the Air Force and Army further
                                                                                                                     9


states that contracts with a base fee 19 should not provide an award fee for
performance that is deemed satisfactory, as the base fee is intended to compensate
such performance. 20

Despite OMB guidance and best practices from other Federal agencies, Operating
Administrations continue to allow contractors to earn award fees without
performing at a level that is acceptable to the Government under the terms of the
contract. Specifically, the performance evaluation plans for 13 contracts reviewed
allow award-fee payments for below-average results. For example, the payment
structure for FHWA’s Long-Term Pavement Performance Studies-Southern
Regional Support contract—a 5-year contract for non-personnel support services—
allows the contractor to receive up to 70 percent of the fee for poor performance.
Ultimately, the contractor could receive over $555,000 of the available award fee
over the life of the contract without meeting the contract’s terms. This type of
payment structure not only allows contractors to receive substantial payments for
poor performance, it leaves little in the award-fee pool to encourage contractors to
meet or exceed expectations and achieve desired contract outcomes. In the FHWA
contract, less than $240,000 is available to motivate the contractor to carry out the
contract’s terms. 21

Operating Administrations also developed payment structures that allow
compensation for satisfactory performance on contracts with a base fee, which
already award for satisfactory performance. Specifically, 9 of the 10 contracts we
reviewed that include a base fee allow significant award fees to be paid for
satisfactory performance in addition to the base fee—essentially rewarding the
contractor twice for satisfactory performance. For example, FAA’s payment
structure for an engineering, technical, and administrative support contract for
civilian and military aircraft guidance and surveillance systems currently allows the
contractor to earn an award fee for “good” performance—which the contract
defines as meeting contract requirements with some weaknesses—in addition to the
received base fee of $1.7 million. The payment structure would allow up to
72.5 percent, about $3 million, of the award-fee pool for good performance, leaving
only about $1 million to motivate performance that exceeds expectations.


Vague Evaluation and Award-Fee Criteria Make It Difficult for Monitors
to Appropriately Rate Contractor Performance
Clear evaluation criteria are critical to ensuring award fees are commensurate with
contractor performance.        Without clearly defined metrics and outcomes,
19
   The base fee is an amount of money (from 0–3 percent of the estimated cost of the contract) fixed at the inception of
   the contract, which is paid to the contractor for its performance.
20
   The Department of Defense has also issued a policy memorandum to improve the design and strengthen controls
   over use of CPAF contracts.
21
   For this contract, we did not document any instances where the contractor was paid award fees for poor performance.
                                                                                                                  10


performance ratings are open to subjective interpretation and can result in
unsupported contractor performance evaluations and awards. Accordingly, OMB
guidance calls for CPAF contracts to establish specific performance objectives
prior to contract award, such as delivering products and services on time, within
cost goals, and of a stated level of quality. OMB guidance also states that awards
must be tied to demonstrated results, as opposed to effort, in meeting or exceeding
specified performance standards. Guidance from NASA and the Departments of
the Air Force, Army, and Navy similarly indicates that using measurable criteria to
evaluate contractor performance is preferred and warns that using broad evaluation
criteria can result in monitors being unable to provide meaningful comments to
support ratings.

None of the evaluation plans for the 24 DOT contracts we reviewed had clear and
measurable criteria to evaluate contractor performance. For example, the plan for
FHWA’s Adaptive Control Software contract includes vague phrases such as
“quality and timeliness of deliverables;” “quality of planning;” “effectiveness of
cost and business management;” and “timeliness and quality of financial reports,
processing of contract modifications, and compliance with contract clauses” as
standards to measure technical performance, schedule management, and cost
management.

For 23 contracts, the adjectival rating 22 descriptions in the performance evaluation
plans were vague and/or inconsistent and did not clearly define the basis for
assigning such a rating, making it difficult for monitors to determine the
appropriate rating of the contractor’s performance. For example, Volpe’s TRIPS
contract, 23 which provides for a broad range of information technology support
services, uses phrases such as “above standard,” “highly effective results,” and
“timely manner” as standards for a rating of very good. Discussions with eight
performance monitors revealed that each had a different interpretation on how to
apply these ratings to contractor performance. One performance monitor
interpreted a very good rating as the contractor performing only minor rework,
while another interpreted the rating as the contractor performing “above and
beyond meeting the requirements.” Interpretations of an excellent rating also
varied. For example, one performance monitor stated that excellent equated to
having one error on a task, while another stated that it equated to having three
errors on a task. Inconsistent interpretations of adjectival rating descriptions
significantly increase the risk of the Government overpaying or unfairly
distributing award fees.


22
   Adjectival ratings describe what constitutes each level of performance within each performance category and provide
   assistance in establishing evaluation criteria.
23
   Report Number FI-2008-070, “Interim Report on Award-Fee Criteria for the Transportation Information Project
   Support Contract,” dated August 14, 2008.
                                                                                                            11


For 21 contracts, Operating Administrations simply required the contractor to meet
basic contract requirements. For example, in May 2008, we reported that FAA’s
National Airway Systems contract required the contractor to assign qualified
personnel to accomplish the work—a standard expectation, which normally does
not merit an award. 24 Guidance from the Departments of the Army and the Air
Force states that award-fee criteria should focus on the most important aspects of
the procurement that will motivate the contractor to perform in an exceptional
manner.

DOT'S MANAGEMENT OF CPAF CONTRACTS FACES MANY
CHALLENGES
The Department has not effectively managed its CPAF contracts. DOT lacks
sufficient training and has failed to ensure adequate separation of duties for
employees responsible for administering CPAF contracts. At the same time, it is
unknown whether DOT’s use of CPAF contracts has been appropriate. This is
largely because Operating Administrations commit to contracts without justifying
their cost-effectiveness, as required by the FAR and recommended by FAA’s AMS,
and DOT has not determined whether its CPAF contracts have produced better
outcomes than other contract types. Finally, inactive funds on completed CPAF
contracts are not always deobligated in a timely manner, leaving funds idle when
they could be used for other purposes. Together, these challenges raise significant
concerns about the appropriateness and equity of award-fee payments.


Inadequate Training on the Use of CPAF Contracts Has Resulted in
Errors That Make it Difficult To Manage CPAF Contracts
DOT does not provide adequate training on the use of CPAF contracts. The
Department of the Air Force recommends that such training provide a clear
understanding of the award-fee process; performance evaluation plans; roles and
responsibilities; documentation requirements; and evaluation techniques, including
gathering information related to specific criteria, techniques to be used, and
frequency of observations. Based on our reviews of evaluation documents and
interviews with some performance monitors, we concluded that this type of training
for CPAF contracts is not currently in place. For example, performance monitors
were unaware of requirements to provide documentation to support their ratings
and provisions to make certain modifications to performance evaluation plans.
Training is also critical given that contracting actions change hands quickly as staff
leave or are reassigned, and contracting personnel have become less familiar with
contracts assigned to them.

24
     Report Number FI-2008-054, “Interim Report on Award-Fee Criteria for the National Airway Systems Contract,”
     dated May 28, 2008.
                                                                                                  12


The need for training is especially apparent at FAA. FAA issued an Award-Fee
Contracting Guide in September 2007, which mirrors NASA's Award-Fee
Contracting Guide. The guide states that using outcome-based factors is preferred
because they are better indicators of performance. However, we found that some
FAA contracting and program officials were unaware of FAA’s Award-Fee
Contracting Guide, and the contract actions we reviewed did not always
demonstrate use of award-fee criteria outlined in the guide. In February 2008, we
reported that the award-fee criteria for FAA’s follow-on National Airspace System
Implementation Support (NISC) II contract were vague and not linked to
acquisition outcomes. 25


Overlapping Award-Fee Responsibilities Create Additional Risks
To minimize the risk of fraud, waste, and abuse in Federal contracting, OMB
Circular A-123 requires that key responsibilities in authorizing, processing,
recording, and reviewing official agency transactions be separated among
individuals performing these duties. The Departments of the Air Force and Army
have guidance that underscores OMB’s circular. Specifically, their guidance states
that it is especially important for all personnel to understand the overall evaluation
process and their specific roles and responsibilities within their agency to evaluate
the contractor's performance. FAA’s award-fee guide similarly indicates that a
three-level organizational structure should generally be employed using separate
individuals for performance monitor, PEB, and FDO duties.

However, on half of the DOT Operating Administrations' contracts we reviewed,
personnel simultaneously fulfilled multiple key roles in the award-fee process, such
as performance monitor, voting member on PEB, and FDO. For example, on two
MARAD contracts for logistics support, the performance evaluation plans
designated employees to act as performance monitors as well as members on the
PEB. For both contracts, the PEB Chairperson was also a performance monitor. In
other words, performance monitors are reviewing their own ratings. Allowing
personnel to simultaneously carry out both performance monitor and PEB
responsibilities exacerbates the risks inherent to CPAF contracts because the PEB
is expected to provide an objective assessment of the contractor’s overall
performance based on performance monitors’ evaluations, contractors' self-
evaluations, and any other information available in order to recommend the earned
award-fee amount.




25
     Report Number FI-2008-027, “Interim Report on Award-Fee Criteria for the National Airspace System
     Implementation Support II Contract and Bridge Contract,” February 27, 2008.
                                                                                                                     13


DOT’s CPAF Contracts Are Entered Into Without Sufficient Knowledge
About Their Appropriateness
While CPAF contracts can provide incentives to spur innovation and reduce costs,
they require greater effort and more resources than other contract types to monitor
and document contractor performance. Before committing to this contract type, the
FAR 26 requires, and FAA’s AMS recommends, that agencies justify the cost-
effectiveness of a CPAF contract. OMB reinforced this requirement by directing
contracting officers to conduct and document risk and cost-benefit analyses when
determining whether to use CPAF contracts. 27 NASA and the Departments of the
Army, Air Force, and Navy similarly recommend justifying the use of these
contracts. Specifically, they require their agencies to conduct a cost-benefit
analysis to ensure that the benefits gained through a CPAF contract outweigh the
additional costs of overseeing and administering the contract.

None of the 24 contracts we reviewed provided justification on the cost-
effectiveness of selecting a CPAF contract. For example, in May 2005, FHWA
awarded an approximately $21 million contract—which includes both CPAF and
cost-plus-fixed-fee line items—without justification.      According to FHWA
officials, they lacked the resources to adequately evaluate contractor
performance—and consequently did not pay an award fee—raising questions as to
whether the CPAF portion of the contract was appropriate to begin with.

In September 2007, FAA issued an award-fee guide calling for a consideration of
the costs and benefits of using CPAF contracts because of the cost and
administrative burden involved. In May 2008, we reported that FAA’s National
Airway Systems contract—awarded a few months before the new guidance was
issued—had not evaluated the administrative costs to justify its use of a CPAF
contract. 28 In response to our audit and recommendations, FAA determined that
the cost and time required to oversee, monitor, and document the award-fee process
outweighed the potential benefits of the contract and therefore, changed the
contract to a cost-plus-fixed-fee contract. However, FAA did not justify the costs
for a CPAF contract awarded after the guidance was issued. Specifically, in
February 2008, FAA awarded a $234 million follow-on bridge contract to its NISC
II contract without justifying its cost-effectiveness. According to FAA contracting

26
     As of October 14, 2009, the FAR explicitly requires agencies to perform and document a risk and cost-benefit
     analysis to justify any additional administrative effort and cost required to monitor and evaluate performance (FAR
     16.401). Prior to this revision, the FAR limited use of CPAF contracts to where the contract amount, performance
     period, and expected benefits were sufficient to warrant the additional administrative effort and cost involved (FAR
     16.405-2(c)(2), as of October 1, 2009). The FAR also required that the contracting office contract file include
     acquisition planning information (FAR 4.803); and an acquisition plan must include a discussion of contract-type
     selection (FAR 7.105).
27
     Office of Management and Budget, Appropriate Use of Incentive Contracts, Memorandum for Chief Acquisition
     Officers and Senior Procurement Executives, December 4, 2007.
28
     Report Number FI-2008-054, “Interim Report on Award-Fee Criteria for the National Airway Systems Contract,”
     dated May 28, 2008.
                                                                                                                     14


and program officials, it was too late in the evaluation process to change the
contract type.

Contracting officials cited three reasons for not justifying their use of CPAF
contracts:

•      They were unaware of FAR and FAA requirements to provide justification.

•      The FAR and FAA did not specifically require a cost-benefit analysis.

•      Individuals who made the decision to use a CPAF contract are no longer with
       the responsible contracting office.

In addition to Operating Administrations not justifying their use of CPAF contracts,
DOT has not conducted analyses to determine whether its CPAF contracts actually
produce better outcomes than other contract types might have. Without such
analyses, DOT cannot ensure that its CPAF contracts are the most beneficial to the
Government.


Inactive Funds on Completed CPAF Contracts Run the Risk of Not
Being Deobligated
Obligations 29 that are no longer needed or exceed estimated needs should be
deobligated and made available to fund other projects. The timely deobligation of
funds could result in real time savings to DOT and can also be used to fund other
DOT priorities. However, about $4.6 million in obligations on one contract we
reviewed—FAA’s University of Oklahoma contract for air traffic controller
training—remained outstanding after the contract ended in July 2006. Specifically,
work was completed on the contract, yet unexpended balances, including award
fees, were not released. Further, FAA awarded a follow-on contract for the same
services in August 2006. We notified FAA about this issue in February and
September 2008, and FAA acknowledged it had not deobligated the funds. Soon
after our second notification, FAA made several transactions to deobligate all but
approximately $42,000, which was needed to close out the contract.

This example by itself does not indicate a systemic problem but may suggest that
other CPAF contracts can run the same risk of not deobligating inactive funds,
warranting Operating Administrations to better manage this process.




29
     An obligation represents a liability that is created when an agency enters into a binding legal agreement, such as a
     CPAF contract.
                                                                                 15


CONCLUSION
When award fees are tied to performance, CPAF contracts can encourage
contractors to reduce costs, stay on schedule, and achieve acquisition outcomes,
mitigating risk to the Government. However, based on the contracts reviewed,
there is almost no assurance that the significant award fees paid to contractors are
commensurate with actual performance. Further, DOT and FAA’s current
practices do not establish a rigorous process for effective design, implementation,
and payment of award fees. As a result, these award fee practices provide little
incentive for contractors to meet minimum contract requirements, much less exceed
them. Until DOT and FAA take action to ensure contracting officials effectively
design and implement CPAF contracts, the Department will continue to put
taxpayer dollars at risk.

AGENCY ACTIONS
FAA and Volpe provided written comments on our 2008 interim reports that
describe the agencies' vague and/or inconsistent adjectival rating descriptions,
performance evaluation plans that do not include measurable criteria to adequately
evaluate contractor performance, and lack of justification on the cost effectiveness
of selecting a CPAF contract. In their comments, both FAA and Volpe concurred
with all recommendations made in those reports and to date, have completed all
corrective actions.

RECOMMENDATIONS
We recommend that the Senior Procurement Executive:

1. Update or expand the TAR guidance to:

    a. Develop specific award-fee criteria for assessing contractor performance by
       providing more measurable and outcome-based criteria linked to
       acquisition outcomes.

    b. Define adjectival ratings so there will be a clear basis for assessing
       performance and ratings consistent with the grading table.

    c. Develop award-fee payment structures that 1) incentivize excellent
       contractor performance and 2) prohibit contractors from receiving award
       fees (when a base fee is included) for simply meeting contract requirements
       or for performance that is judged to be unsatisfactory.

    d. Establish clear division of responsibility for the evaluation team (FDO,
       PEB, performance monitors) and prohibit the same official from
       performing multiple roles.
                                                                              16


   e. Require performance monitors to document the basis for performance
      ratings or scores given and include specific examples of strengths and
      weaknesses.

   f. Conduct a cost-benefit analysis in choosing a CPAF contract and document
      how the benefits will offset the additional cost associated with
      administering such a contract.

2. Deobligate funds from CPAF contracts that have ended or from completed
   rating periods with unused award fees.

3. Train contracting and program office personnel on designing and administering
   CPAF contracts consistent with revised guidance.

4. Develop performance measures to evaluate the effectiveness of award fees as a
   tool for improving contractor performance and achieving desired program
   outcomes.

We recommend that the Vice President of Acquisition and Business Services,
FAA:

5. Establish a process for monitoring implementation of FAA’s Acquisition
   Management System and Award-Fee Contracting Guide.

6. Train contracting and program office personnel on designing and administering
   CPAF contracts, emphasizing future prevention of the types of deficiencies
   noted in this report.

7. Deobligate about $4.6 million in obligations on the University of Oklahoma
   contract for air traffic controller training (DTFA02-01-D-03699).

8. Deobligate funds from CPAF contracts that have ended or from completed
   rating periods with unused award fees.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of our report to OST and FAA, with separate
recommendations to each. In a consolidated response from OST, FAA concurred
with our recommendations targeted for FAA. OST concurred with two of our
recommendations for OST and partially concurred with the other two—
recommendations 1 and 4. We acknowledge that the Department has reduced its
use of CPAF contracts considerably since our assessment, and we encourage
continued careful use of these types as they present significant cost risk to the
                                                                              17


government and taxpayers. The agency's response and our sustained position with
regard to our recommendations are detailed below.

For recommendation 1, OST stated that rather than modify the TAR, it will
develop a CPAF Guidebook incorporating planning, implementation, and
administration of CPAF contracts based on guidance available from best practice
agencies. According to OST, the guidebook, along with training, will meet the
intent of our recommendation—to ensure Operating Administrations obtain
detailed guidance on how to design and administer CPAF contracts. Because OST
does not plan to implement its guidebook before July 2011, we are asking the
Acting Deputy Assistant Secretary for Administration to ensure acquisition
officials involved with the administration of CPAF contracts are aware of the new
FAR 16.4 requirements for award-fee contracts.

For recommendation 4, OST stated that its reduction in the use of CPAF contracts
and the absence of a control group makes it difficult to determine CPAF
effectiveness based on performance measures. The intent of our recommendation
was to ensure DOT complies with the FAR, which now requires agencies to
include performance measures to evaluate if award fees are an effective tool for
improving contractor performance and achieving desired program outcomes (FAR
16.401(f)). Because OST's response does not provide assurance that OST will
implement this FAR requirement, we are asking the Acting Deputy Assistant
Secretary for Administration to provide us more details on the specific actions
OST will take to implement the recommendation—such as describing whether
OST or Operating Administrations will develop performance measures and
confirming whether the requirement will be incorporated in the guidebook—as
well as a timeframe for implementation.

Despite concurring with many of our recommendations, OST raised several
concerns with our findings. First, OST notes that our draft report overstated
FAR’s requirement to complete a cost-benefit analysis before selecting a CPAF
contract. We found that a cost-benefit analysis was not performed for any of the
24 CPAF contracts we reviewed and, therefore, concluded that Operating
Administrations have committed to CPAF contracts without justifying their cost
effectiveness. OST believes that our conclusion calls for an evaluation of full
costs and benefits of CPAFs versus other alternatives. However, our report does
not call for such an evaluation. Instead, it recommends that OST contracting
officials complete a cost-benefit analysis to determine whether use of a CPAF
contract justifies the added costs to administer and monitor the contract
effectively.

Second, OST disagreed with our statement that Operating Administrations allowed
large award-fee payments for contractors who perform satisfactorily because the
                                                                                18


FAR currently states that up to 50 percent of the award-fee pool can be earned for
satisfactory performance. However, we found that Operating Administrations
allowed contractors to earn more than 50 percent of the available award-fee pool
for satisfactory performance. Specifically, in 9 of the 10 contracts we reviewed
that include a base fee, Operating Administrations also allowed contractors to earn
award fees over 50 percent and up to 75 percent of the available award-fee pool
for satisfactory performance. The FAR states that a CPAF contract "is a cost-
reimbursement contract that provides for a fee consisting of (1) a base amount
fixed at inception of the contract, if applicable…and (2) an award amount that the
contractor may earn in whole or in part during performance and that is sufficient
to provide motivation for excellence in the areas of cost, schedule, and technical
performance."      Best practices used throughout the Federal Government
recommend that contracts with a base fee—a fixed amount that the contractor
earns for satisfactory performance—should not provide an award fee for
performance that is deemed satisfactory since this would essentially reward the
contractor twice for satisfactory performance.

OST also questioned our finding that $14 million of the award fees for CPAF
contracts we reviewed lacked adequate support to determine whether assigned
ratings and resulting awards were justified. Accordingly, OST did not agree with
our estimated $140.6 million in unsupported award fees. Our extrapolation is
based on the results of our review of 22 contracts, which identified that 17
contracts lacked adequate documentation to support performance monitors'
ratings. Without detailed performance monitors' reports and examples, the
Department is forced to rely on contractors' self-assessments and high-level
assessments to recommend award fees, which could result in overstated award
fees. Without sufficient documentation from the performance monitors, we could
not determine whether the high fees awarded were justified. We estimated the
magnitude of the unsupported payments for all contracts in the universe with 90
percent confidence 30 to determine the impact of the unavailable or inadequate
documentation.

Finally, OST commented that our draft report does not recognize that the TRIPS
contract rating panel provided detail to substantiate their ratings. While we
reviewed panel rating reports, we focused on the lack of rating support from their
performance monitors, who are responsible for observing contractor performance,
documenting results, and justifying their conclusions. We found performance
monitors simply selected a rating, such as excellent or satisfactory, without
explaining the reason or providing examples, or provided comments that were too
general to demonstrate whether the contractor complied with the criteria. Given
that members of the contract rating panel subsequently review the performance

30
     Relative precision of the estimate is + 46.3 percent.
                                                                                19


monitors' evaluations for dozens of task orders performed during any period, it is
critical that evaluations be as specific and detailed as possible.

It should be noted that during our review, we identified critical conditions on
specific CPAF contracts, which we presented to the Department in four interim
reports between February and October 2008. We worked with contracting and
program officials who concurred with our findings and implemented corrective
actions to ensure that pending awards for new CPAF contracts were designed to
encourage contractors to perform efficiently and effectively.

DOT's current CPAF contracts and contracts with significant CPAF provisions are
valued at approximately $5.4 billion. Considering the significance of these
contracts, we will closely monitor OST's actions implementing our
recommendations.


ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, we request that
you provide a response within 30 days to this report that clearly indicates how you
will resolve Recommendations 1 and 4. You may provide alternative courses of
action that meet the intent of Recommendations 1 and 4, and indicate the specific
actions planned and the target dates for completion.

We appreciate the courtesies and cooperation of DOT representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-1427 or Terry Letko, Acting Assistant Inspector General for Acquisition
and Procurement Audits, at (202) 366-2001.

cc: Assistant Secretary for Administration
     Federal Aviation Administrator
     Associate Administrator, Regions and
       Center Operations, FAA
     Vice President of Acquisition and
        Business Services, FAA
     Martin Gertel, M-1
     Anthony Williams, ABU-1
                                                                                                                    20


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit in accordance with generally accepted government
auditing standards. 31 Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

We conducted this audit between June 2007 and May 2010. We reviewed Federal
Acquisition Regulations (FAR), Transportation Acquisition Regulations (TAR),
and guidance from other Federal agencies (Departments of the Army, Navy, and
Air Force; Environmental Protection Agency; and the National Aeronautics and
Space Administration) to identify practices that we considered most beneficial in
helping ensure effective use of award fees.

In addition, we reviewed FAA’s Acquisition Management System (AMS), which
establishes acquisition policies and procedures for FAA. FAA adheres to its AMS
Guidance in place of the TAR. We also reviewed FAA’s Award-Fee Contracting
Guide issued in September 2007.

In addressing our objectives, we performed the following steps for the contracts we
reviewed:

•      Obtained a copy of the contract and other documentation pertaining to the
       award-fee process.
•      Interviewed the contracting and program officials for each contract.
•      Performed a detailed review of a minimum of two rating periods for each
       contract.
•      Held meetings with contracting and program officials throughout the audit
       regarding our analysis of contracts and DOT's process for managing them.

CPAF contracts are used by 7 of the 13 Operating Administrations that make up
DOT. As of December 31, 2006, DOT had 41 open CPAF contracts with a
potential maximum value of approximately $3.4 billion, including about
$171 million in available award fees.

From that universe of open CPAF contracts, we reviewed a randomly selected
sample of 21 CPAF contracts with a potential maximum value of about
$2.5 billion, including about $144 million estimated as the available award-fee

31
     The audit completion date was delayed due to the issuance of four interim reports on individual CPAF contracts. See
     exhibit B.


Exhibit A. Scope and Methodology
                                                                                                        21


pool. 32 We also reviewed three follow-on contracts 33 in addition to those randomly
selected, which totaled approximately $572 million, including about $26 million in
available award fees. The total number of CPAF contracts reviewed was 24 (see
table 2).

Originally, we selected a statistical sample of 30 out of a universe of 44 CPAF
contracts. We reviewed the sampled contracts and found that three were not CPAF
contracts. Due to this finding, we verified with Operating Administrations that all
remaining 41 contracts in the universe were CPAF contracts. Based on
management's decision, we reviewed the first 21 contracts in our sample. From
these 21 sampled contracts, we subsampled 46 of 213 rating periods (22 percent)
using a fixed-interval method. Only 1 contract had documentation to support
performance awards, 3 contracts had not paid any performance awards, and the
remaining 17 contracts did not have sufficient documentation to support
performance awards. Because 3 contracts had not paid any award fees, we
reviewed the ratings for 40 rating periods. Ultimately, out of the $14.3 million paid
on the 21 contracts during the 40 rating periods we reviewed, the amount of
unsupported awards totaled $13.9 million (97.1 percent). Based on the results of
our sample, we estimate with 90 percent confidence 34 that approximately
$140.6 million was paid in award fees as of December 31, 2007, without proper
justification, thus identified as unsupported costs.

In addition, due to significant and ongoing deficiencies found in the 21 contracts
randomly selected, we also reviewed three follow-on contracts related to three
contracts in our random sample. For two of the follow-on contracts, we found that
rating periods were not yet completed. For the remaining one follow-on contract,
we selected and reviewed 2 rating periods and found documentation to support
performance awards. The amount paid and supported on these three follow-on
contracts totaled $738,117.




32
   Under a CPAF contract, a pool of money is negotiated in advance, and periodic assessments are made by the
   Government to determine how much of the award-fee pool will be earned based on contractor performance and
   attainment of the program goals and objectives.
33
   A new contract that calls for the same supplies and services as a previous contract.
34
   Relative precision of the estimate is ± 46.3 percent.

Exhibit A. Scope and Methodology
                                                                    22



Table 2. DOT Operating Administrations’ CPAF Contracts
Reviewed

           Operating Administration             Number of CPAF
                                               Contracts Reviewed
Federal Aviation Administration (FAA)                   7
Federal Highway Administration (FHWA)                   7
Federal Railroad Administration (FRA)                   1
Maritime Administration (MARAD)                         3
Office of the Secretary Administration (OST)            1
Pipeline and Hazardous Material Safety                  1
Administration (PHMSA)
Research and Innovative Technology                     4
Administration (RITA)
Total CPAF Contracts Reviewed                         24




Exhibit A. Scope and Methodology
                                                                                  23


EXHIBIT B. INTERIM REPORTS
OIG Report Number FI-2008-027, “Interim Report on Award-Fee Criteria for
National Airspace System Implementation Support II Contract and Bridge
Contract,” February 27, 2008.
Our report on the National Airspace System Implementation Support II contract
(NISC II) demonstrated that FAA did not structure and implement the ongoing
NISC II CPAF contract in a way that effectively motivated the contractor to
improve performance and achieve acquisition outcomes—defined in terms of
program costs, schedule, and performance. Additionally, FAA contracting officials
did not justify the cost effectiveness of selecting a CPAF contract by evaluating
administrative costs versus expected benefits to the Government. FAA contracting
and program officials are implementing actions to meet the intent of our
recommendations by clearly identifying measurable award-fee criteria for assessing
contractor performance and linking the criteria to acquisition outcomes.
Implementing the planned corrective actions will put approximately $18 million in
expected award fees for the bridge contract to better use by ensuring that FAA’s
contract objectives are being met. We also recommend FAA acquisition officials
reevaluate the use of CPAF contracts for future NISC procurements.

OIG Report Number FI-2008-054, “Interim Report on Award-Fee Criteria for
the National Airway Systems Contract,” May 28, 2008.
Our report on FAA’s National Airway Systems contract demonstrated that
contracting officials did not justify the cost effectiveness of selecting a CPAF
contract by evaluating administrative costs versus expected benefits to the
Government. Without this evaluation, the Aeronautical Center had no assurance
that a CPAF contract was appropriate. Additionally, the performance evaluation
plan did not include measurable criteria needed to adequately evaluate contractor
performance. Further, a portion of the award-fee criteria required the contractor to
merely comply with basic contractual requirements. The performance evaluation
plan allowed award-fee payments up to 72.5 percent of the award-fee pool for
average or below results. The problems cited in this report existed, in part, because
Aeronautical Center personnel did not have detailed guidance on how to structure
performance evaluation plans to incentivize contractors. FAA contracting and
program officials agreed to select another contract type more suitable for obtaining
engineering and technical support and revise Aeronautical Center guidance.
Implementing the planned corrective actions will put approximately $199 million
in remaining contract funds to better use.




Exhibit B. Interim Reports
                                                                                   24


OIG Report Number FI- 2008-070, “Interim Report on Award-Fee Criteria
for the Transportation Information Project Support Contract,”
August 14, 2008.
Our report on the Volpe National Transportation Systems Center’s Transportation
Information Project Support (TRIPS) contract demonstrated that the performance
evaluation plan did not include measurable criteria needed to adequately evaluate
contractor performance. Further, descriptions defining adjectival ratings were
vague and inconsistent and did not clearly define the basis for rating performance.
This resulted in performance monitors arbitrarily determining which ratings they
believed best reflected how well the contractor performed. Additionally,
contracting officials did not justify the cost effectiveness of selecting a CPAF
contract by evaluating administrative costs versus expected benefits to the
Government. Without this evaluation, Volpe had no assurance that a CPAF contract
was appropriate. Senior Volpe officials are implementing actions to meet the intent
of our recommendations by clearly identifying measurable award-fee criteria for
assessing contractor performance. Implementing the planned corrective actions
will put approximately $4 million in expected award fees to better use.

OIG Report Number FI-2009-002, “Interim Report on Award-Fee Criteria for
the System Engineering and Technical Assistance II Contract,”
October 7, 2008.
Our report on FAA’s System Engineering and Technical Assistance II contract
demonstrated that the performance evaluation plan did not include measurable
criteria needed to adequately evaluate contractor performance. Further, descriptions
defining adjectival ratings were vague and did not clearly define the basis for rating
performance, and performance evaluators were not required to document the
rationale for the performance ratings. This allows for unsupported personal
opinions for judging contractor performance. Additionally, contracting officials
did not justify the cost effectiveness of selecting a CPAF contract by evaluating
administrative costs versus expected benefits to the Government. Without this
evaluation, FAA had no assurance that a CPAF contract was appropriate. Senior
FAA contracting and program officials are implementing actions to meet the intent
of our recommendations. Implementing the planned corrective actions will put
approximately $8 million in expected award fees to better use.




Exhibit B. Interim Reports
                                                           25


EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                  Title

   Terrence Letko                       Program Director

   Dory Dillard-Christian               Project Manager

   Chris Minovich                       Senior Auditor

   Stacie Seaborne                      Senior Analyst

   Jelilat Ojodu                        Auditor

   Narja Hylton                         Auditor

   Petra Swartzlander                   Statistician

  Krista Kietrys                        Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                                       26


           APPENDIX. AGENCY COMMENTS



           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation

           ACTION: Management Response to OIG Draft Report,
Subject:   “Improvements in Cost-Plus-Award-Fee Processes Are                 Date:    June 17, 2010
           Needed To Ensure Millions Paid In Fees Are Justified”

                                                                           Reply to
  From:    Linda J. Washington                                             Attn. of:
           Assistant Secretary for Administration

    To:    Mark H. Zabarsky
           Assistant Inspector General for
            Acquisition and Procurement Audits


           The OIG draft report overstates the issues associated with the use of Cost Plus Award Fee
           (CPAF) contracts at DOT and relies upon arguments that do not always provide complete
           substantiation, resulting in an unduly critical review of these contracts, and their limited
           implementation at the Department. With less than 59 CPAF contracts let thus far in fiscal
           year 2010, CPAF contract use has declined considerably over the last few years, and
           represents less than 1 percent of DOT’s contracting activity. As described in the Federal
           Acquisition Regulations (FAR) CPAF contracts are useful vehicles when it is not feasible or
           effective to devise predetermined, objective incentive targets applicable to cost, schedule, or
           technical performance. Within DOT, useful applications of CPAF include obtaining
           engineering or information technology services, which do not always lend themselves well to
           quantitative performance metrics.

           The OIG draft report makes a number of assertions that are not well supported. These
           assertions form a basis for several of the primary concerns expressed in the draft report. For
           example, the draft report states that it is unknown whether CPAF use has been appropriate
           because Operating Administrations commit to CPAF contracts without justifying their “cost
           effectiveness” as required by the FAR. However, the FAR does not require a demonstration
           that CPAF will be “cost effective” in order to justify its use. Rather, the FAR at
           16.401(e)(1)(iii) requires only that “any additional administrative effort and cost required to
           monitor and evaluate performance are justified by the expected benefits.” This narrow
           consideration of performance monitoring cost compared to the benefits associated with
           CPAF contracts does not equate to a requirement for an overall cost effectiveness analysis as
           indicated in the OIG draft report. Further the report indicates that Operating Administrations
           “large award fee payments” for contractors who perform satisfactorily are mainly the result


           Appendix. Agency Comments
                                                                                            27


of a lack of detailed guidance and training on how to design and administer CPAF contracts.
While the Department acknowledges the overall need to enhance guidance and training to
more strongly link performance objectives to adjectival ratings for CPAF contracts, Table
16-1 currently in the FAR provides up to 50 percent of the award fee pool can be earned for
satisfactory performance. As a result, such awards can be in compliance with FAR guidance
and should not be assumed to be inappropriate or due to lack of guidance. The OIG draft
report should also clarify its treatment of “base fees” compared to “award fees,” and the
standards and analytical approach applied to each, as these are not clear in the version we
reviewed. Finally, the report is also critical of ratings which lacked support offering brief
statements, such as, “there were no schedule issues,” to demonstrate insufficient review of
contractor performance. However, these statements are not representative of the full extent
of performance evaluation documentation available, particularly with regard to several of the
contracts cited in the report.


The Department does not concur with the OIG draft report’s assertion that $14 million in
award fees for the contracts reviewed, or its extrapolation to $140.6 million in award fees
across the Department, were “without appropriate justification,” and therefore unsupported.
While the Department recognizes that CPAF implementation may not have been consistent
across all organizations, we do not concur with the extent or amount of these findings. To
the contrary, the Department’s implementation of CPAF in some organizations reduced costs
compared to available alternative contract types for these services, such as Cost Plus Fixed
Fee (CPFF). Had the Department used CPFF in lieu of CPAF, it could have cost an
additional $1.4 million for the contracts included in the draft report’s table 1, because CPAF
affords enhanced potential for management evaluation and consideration of contractor
performance in determining fees. Under CPFF, the Department would have been required to
pay this amount based only on a contractor’s best efforts, rather than any assessment of
results. For the RITA/Volpe Transportation Information Project Support (TRIPS) contract
cited in the draft report, the OIG report shows that RITA/Volpe reduced costs by about 15
percent of what the contract could have cost using CPFF.

While we have disagreements with aspects of the OIG draft report findings, we recognize
that implementation of CPAF could be improved and made more consistent across the
Department with enhanced guidance and training. Steps have already been taken to improve
CPAF implementation, through measures including FHWA’s 2008 CPAF training for 164
Contracting Officer Technical Representative’s (COTR’s). Additional actions will be taken
to improve our use of CPAF contracts, including providing improved guidance and further
training, as discussed below in response to the draft report’s recommendations.

FAR Defined Adjectival Subjective Ratings for CPAF Contracts

Currently, the FAR at Subpart 16.401 specifically directs agencies to utilize the adjectival
rating and associated description shown in table 16-1. This table includes adjectival ratings
of excellent, very good, good, etc., along with associated operational definitions. The FAR
allows, but does not require agencies to supplement these rating descriptions as long as the
method used to determine the adjectival rating is documented in the award-fee plan and

Appendix. Agency Comments
                                                                                           28


linked to performance objectives. Although management offered examples of detailed
evaluations, they are not recognized in the OIG draft report. For example, RITA/Volpe
officials on the TRIPS contract rating panel provided detail to substantiate their ratings.
According to RITA/Volpe officials, the rating reports for the TRIPS contract have run from
15 to 20 pages for each evaluation period of the contract. Nonetheless, the OIG draft report
offers none of this detail, instead inferring on page 3 that the sole support for performance
was “there were no schedule issues.” This depiction of the support for the TRIPS contract
performance evaluation is incomplete and inaccurate. Similarly, on page 6 of the report, OIG
states that support for 285 of 310 “superior” ratings on a MARAD contract included
comments such as “most pleased with the progress and quality or work to date” and “the
contractor has overcome obstacles and made it work.” Here again, the report relies on two
summary statements and does not reflect the level of effort or detail by MARAD’s contract
evaluators as part of the award fee determination.

Draft Report Overstates FAR Cost Benefit Analysis Requirement

While the FAR required agencies to document their consideration of the potential for
additional costs associated with overseeing CPAF contracts, as described in 16.401(e)(1)(iii),
it did not require a “justification of cost effectiveness,” as asserted in the draft report.
Specifically the FAR calls for, “any additional administrative effort and cost required to
monitor and evaluate performance are justified by the expected benefits as documented by a
risk and cost benefit analysis.” This is not equivalent to a full cost effectiveness
determination, which would require a far more comprehensive evaluation of full costs, and
benefits of CPAF versus other alternatives. As a result, we do not concur with the draft
report’s finding that, “it is unknown whether DOT’s use of CPAF contracts has been
appropriate….because operating administrations commit to these contracts without justifying
their cost effectiveness.” We believe that this finding is likely based on an over-
interpretation of the FAR’s requirement for a more limited consideration of performance
evaluation costs as part of the justification process for use of this contract type.


OST to Enhance CPAF Guidance and Training

The Department recognizes that improvements can be made in the utilization of CPAF
contracts. The Office of the Senior Procurement Executive (SPE) will develop a DOT CPAF
Guidebook incorporating planning, implementation and administration of CPAF contracts,
based on best practice agencies identified in the OIG report. Once the guidebook has been
completed the SPE will incorporate these processes for CPAF contracts into a training
program to support its contracting and program personnel. This will include annual sessions
highlighting best practice CPAF award and administration, and related OIG findings detailed
in this report.




Appendix. Agency Comments
                                                                                              29


RECOMMENDATIONS AND RESPONSES

The OIG draft report offers recommendations to both the SPE within OST and FAA.
Responses for both sets of recommendations are included in this response, starting with those
pertaining to OST.

Recommendation 1: Update or expand the TAR guidance to:

  a. Develop specific award-fee criteria for assessing contractor performance by providing
  more measurable and outcome-based criteria linked to acquisition outcomes.

  b. Define adjectival ratings so there will be a clear basis for assessing performance and
  ratings consistent with the grading table.

  c. Develop award-fee payment structures that 1) incentivize excellent contractor
  performance and 2) prohibit contractors from receiving award fees (when a base fee is
  included) for simply meeting contract requirements or for performance that is judged to be
  unsatisfactory.

  d. Establish clear division of responsibility for the evaluation team (FDO, PEB,
  performance monitors) and prohibit the same official from performing multiple roles.

  e. Require performance monitors to document the basis for performance ratings or scores
  given and include specific examples of strengths and weaknesses.

  f. Conduct a cost-benefit analysis in choosing a CPAF contract and document how the
  benefits will offset the additional cost associated with administering such a contract.

Response: Concur in part. While the SPE will be taking the actions discussed above to
enhance guidance available to contracting officials regarding the use and administration of
CPAF contracts, and reinforcing that guidance with training, we do not see the need to
modify the TAR, as FAR Subpart 16.4 provides ample direction for establishing and
administering CPAF contracts. Instead, the SPE plans to implement the intent of this
recommendation through alternative actions. Specifically, the SPE will develop a DOT
CPAF Guidebook incorporating planning, implementation and administration of CPAF
contracts, based on guidance available from best practice agencies. We believe a guidebook
tied to appropriate training will provide a more useful tool than a TAR update. Upon
completion of the guidebook the SPE will seek to provide appropriate training to contracting
and program personnel involved in the use of this type of contracting vehicle or to those
organizations that may continue to make use of CPAF type contracts. This training will
highlight proper CPAF award and administration. We anticipate completing these actions by
July 1, 2011.

Recommendation 2: Deobligate funds from CPAF contracts that have ended or from
completed rating periods with unused award fees.




Appendix. Agency Comments
                                                                                           30


Response: Concur. DOT will continue conducting reviews of ended and current CPAF
contracts, and deobligate unused funds where legally acceptable, practicable and appropriate.
These actions will be conducted continuously.

Recommendation 3: Train contracting and program office personnel on designing and
administering CPAF contracts consistent with revised guidance.
 Response: Concur. The SPE will provide appropriate CPAF training using the new DOT
CPAF guidebook discussed earlier in this response. We anticipate being prepared to initiate
such training by July 1, 2011.

Recommendation 4: Develop performance measures to evaluate the effectiveness of award
fees as a tool for improving contractor performance and achieving desired program
outcomes.

Response: Concur in part. Use of CPAF contracts has declined considerably through 2010,
to a small fractional percentage of DOT contracting. While the Department will continue to
monitor the use of CPAF contracts, it is difficult, in the absence of a control group, to
determine the effectiveness based on performance measures for these contracts, as we will
not know what would have been if we had used a different incentive contract type.
Nonetheless, during the course of completing the guidance, we will assess the potential for
identifying and implementing performance measures as recommended. These actions will be
completed by July 1, 2011.

OIG RECOMMENDATIONS TO FAA AND RESPONSES

Recommendation 5: Establish a process for monitoring implementation of FAA’s
Acquisition Management System and Award-Fee Contracting Guide.

FAA Response: Concur. FAA will monitor the implementation of the Acquisition
Management System (AMS) and associated guidance through its National Acquisition
Evaluation Program (NAEP). This monitoring will include random reviews of FAA’s
planned and awarded CPAF contracts. This action has already been completed and
incorporated into FY2010 NAEP reviews.

Recommendation 6: Train contracting and program office personnel on designing and
administering CPAF contracts, emphasizing future prevention of the types of deficiencies
noted in this report.

FAA Response: Concur. FAA will incorporate specific requirements and processes for
CPAF contracts into the training program supporting its contracting and program personnel.
This will include sessions at its Acquisition Training Conference to highlight proper CPAF
award and administration, and related OIG findings detailed in this report.
FAA anticipates incorporating this training by September 30, 2010.

Recommendation 7: Deobligate about $4.6 million in obligations on the University of
Oklahoma contract for air traffic controller training (DTFA02-01-D-03699).

Appendix. Agency Comments
                                                                                      31



FAA Response: Concur. As detailed in this report, FAA has already deobligated all but
approximately $42,000, retained for closing costs, on contract DTFA02-01-D-03699 with the
University of Oklahoma. This action has been completed.

Recommendation 8: Deobligate funds from CPAF contracts that have ended or from
completed rating periods with unused award fees.

FAA Response: Concur. FAA will conduct a review of ended and current CPAF contracts,
and deobligate unused funds where needed. FAA anticipates completing this activity by
September 30, 2010.




Appendix. Agency Comments
